-5167

Case No. 20-

SUPREME COURT OF UNITED STATES
Supre He Cr

0“n,lXs.

pILED

Bishop Ruben DeWayne

JUL 192021
Petitioner/Plaintiff,
VS.

J.P. MORGAN MORTGAGE ACQUISITION CORP., et al.,
Respondents/Defendants.

This Petition for Writ of Certiorari in Combo
From U.S. Court of Appeals for the Fourth Circuit C/A No. 20-1889
Appealed from the U.S. District Court, District of South Carolina (3:19-cv-03376)
with Writ of Habeas Corpus to release Incarcerated/Imprisoned Liberties

PETITION FOR WRIT OF CERTIORARI

Bishop Ruben DeWayne, pro se
5105 N. Main Street, Bid. A.
Columbia, South Carolina 29203
(803) 200-5105
20 years victim of Judicial Kleptocracy
Pursuant Rule 33.2

M 2 0 2021
i

^E^MSt5RsK

2

QUESTIONS PRESENTED

1. Whether or not the lower court’s denial of the Petitioner’s guaranteed rights under
provision as outlined in the Bill of Rights departed so far from the accepted
standard and published course of judicial proceedings?
2. Whether or not the US Court of Appeals for the Fourth Circuit correctly reviewed
the lower court’s denial of Petitioner’s Seventh Amendment in lite of the published
guaranteed right to a trial by jury when affirming the summary dismissal and, if
followed here, would such work a continued manifest injustice, and an ongoing
imprisonment of fundamental liberties all citizens mistakenly believe that they are
to have?
3. Whether the US Court of Appeals for the Fourth Circuit correctly affirmed the
lower court’s decision when the denial of Petitioner’s Fifth Amendment due process
clause disregarded this action brought to “Try Title” .... While being faced with
Respondents’ manufactured “Allonge to Note” and “Assignment of Mortgage” that
remain inconsistent with public records and proven by preponderance of evidence
to be a fraud?
4. Whether or not the lower court supported this ongoing violation of Petitioner’s
equal protection right and the freedom to be heard when the record show Petitioner
has been repeatedly and systematically denied access to the courts and, if followed
here, would such work a continued manifest injustice and oppression against
clearly established law?

2

3

Questions Continued

5. Could a reasonable minded, ordinary person off the street, if given the facts and
evidence contained herein that made the record conclude that the U.S. Courts have
openly displayed biasness, partiality and prejudice with complete disregard to the
Petitioner’s basic constitutional and human rights.
6. Does the Supreme Court of the United States not say that, "the due process clause
entitles a person to an impartial and disinterested tribunal... without being denied
the opportunity to be heard?
7. Did the lower court’s affirmation deny due process clause when the MERS’
assignment went against public records, contradicts the opinion and order given
in Lewis v. Bank of NY Mellon Trust Co. 1:16-cv-11122-FDS?
8. Would the Supreme Court of the United States condone or stand by this Petitioner
not being allowed to explain himself in a meaningful way should be deemed a
violation of right to enjoy the fundamental right, leaving a party to be affected by
a personal judgment must have his day in court, and an opportunity to be heard?

End of Questions

3

4

PARTIES TO THE PRECEEDINGS

The Petitioner,
Bishop Ruben DeWayne, pro se litigant
Leitta R. Brooks, Petitioner’s predecessor/ Plaintiff in Civil Action No. l-12-cv-11634FDS, US District Court, Massachusetts under collateral attack.
Bonified Witness

The Respondents are;
J.P. MORGAN MORTGAGE ACQUISITION CORP. (hereinafter) “ACQUISITION”
A subsidiary of J.P. MORGAN CHASE & CO., and also, JPMORGAN CHASE BANK,
NA a non-party and sister subsidiary of ACQUISITION but unlawfully involved itself
without legal standing to do so.
MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC. (hereinafter)
“MERS”
A Delaware Corporation Database of MERSCORP. HOLDINGS, INC.
Respondents Counsel of Record:
NELSON MULLINS
P.O. Box 11070
Columbia, SC 29211-1070

COLLATERAL ATTACKS
Civil Action No. l-12-cv-11634-FDS, US District Court, Massachusetts
(Memo, Order & Judgment were precured by frauds) See attached
Civil Action No. 2017-SM-006779, Suffolk County Land Court (Mass)
(Judgment is a void where the Court lacked personal jurisdiction where no certificate
of authority required to conduct business in the Commonwealth of Massachusetts.)
Civil Action No. l:18-cv-10931, US District Court, Massachusetts
(Void Order & Judgment / withheld Default Judgment, allowed False & Irregular
Docketing / Suffered Want of Jurisdiction by allowing a non-party Defendant to
remove the action & plead, without vacating those granted motions after the
acknowledged fact was duly corrected.)

4

5

LIST OF ALL RELATED PROCEEDINGS

Leitta Brooks u. JPMORGAN CHASE BANK, NA.
U.S. District Mass C.A. No. l:12-cu-11634-FDS
Breach of Contract
Dismissal precured by Frauds (false information as fact)
Dismissal Judgment Date 7/17/2013
Case Entered as Removal 8/31/2012
Leitta Brooks v. JPMORGAN CHASE BANK, NA.
U.S. District Mass C.A. No. l:14-cv-13068-FDS
Petitioner to Vacate and Set Aside Judgment Dismissed Summarily w/o Hearing
Memo and Order of Dismissal 12/5/2014
Case Entry Date 7/22/2014
Mandate recorded Date 9/30/2015
Judgment Date 9/8/2015
Bishop Ruben DeWayne v. First National Bank of Arizona, et al.,
U.S. District Mass No. C.A. No. 1:15-CV-14245-IT
Declaratory Judgment Action Dismissed Summarily
Case Entry Date 12/30/2015
Memo and Order of Dismissal 11/10/2016
Bishop Ruben DeWayne v. Mortgage Electronic Registration Systems, Inc. et al.,
Superior Court of Suffolk County Civil Action No. 1684CV3864-C
Declaratory Judgment Action.... Summarily Dismissed
was REMOVED to U.S. District Mass No. 1:17-CV-10139
Res Judicata Dismissal date 7/12/2017
Removal Entry Date 1 /26/2017
A void judgment precured by frauds

J.P. MORGAN MORTGAGE ACQUISITION CORP. v. L eitta Brooks, et al.,
Suffolk County Land Court No. 2017-SM-006779
Void Judgment to Foreclose without Standing - No Certificate of Authority in MA
In Re: Leitta Brooks Bankruptcy Chapter 7 Case No. 18-80041-FJB
District of Mass C.A. No. 1:12-cv-l 1634-FDS Collateral Attack
Adversarial Proceeding No. 19-01022 Non-Evidentiary Hearing Dismissal
Brooks v. First National Bank of Arizona, et al.,
Bishop Ruben DeWayne v. J.P. MORGAN MORTGAGE ACQUISITION CORP. et
Superior Court of Suffolk County C.A. No C.A. No. 18-1141A
was REMOVED 5/9/2018 to U.S. District Mass No. l:18-cv-10931,
MGL 93A Verified Injunctive Complaint
In Re Bishop Ruben DeWayne Bankruptcy Chapter 7 Case No. 18-02163-DD
DISMISSED w/ Trickery
District of South Carolina

5

6

LIST OF ALL RELATED PROCEEDINGS - Continued

Adversarial Proceeding No. 18-80041-DD Non-Evidentiary Hearing Dismissal
DeWayne v. First National Bank of Arizona, et al.,
Bishop Ruben DeWayne v. MERS INC., et al.,
Suffolk County Land Court No. 2019-Misc-000541-RBF
was REMOVED to U.S. District Mass / CHANGE VENUES to SC
Action to Compel Try Title w / Notice to agree to change Venues &
Trial by Jury Demand if Removed to U.S. District Mass
& Discovery inside the Body of the Complaint
U.S. District Mass C.A. No. l:19-cv-12360-RGS.... Not Entertained
U.S. District SC C.A. No. 3:19-cv-3376-JMC-PJG ..Dismissed w/o Hearing
U.S. Court of Appeals 4th Cir. Appeal Case No. 20-1889... Affirmed and Appealed
U.S. Supreme Court Appeal by Writ of Certiorari Combo in the nature of provisions
For Habeas Corpus to release Incarcerated/Imprisoned Liberties.....
In Re: Bishop Ruben DeWayne Bankruptcy Chapter 7 No. 19-06416-dd
District of South CarolinaDISMISSED w/ Trickery (Credit Counseling)
Adversary Proceeding No.
DeWayne v. MERS, INC., et al.
Bishop Ruben DeWayne v. THE UNITED STATES, et al.,
U.S. District of Columbia Civil Action No. l:20-cv-515-AMP
R.I.C.O. Action filed 2/19/2020 Summarily Dismissed 6/5/2021 w/o Hearing
and Appealed to the U.S. Court of Appeals for District of Columbia...
No word from the Court / Closed due to COVID-19
Order Denied on 4/9/2021
Mandate Dated 4/19/2021

ALL OF THE ABOVE MATTERS STEMS FROM A COMPLAINT FILED FOR
BREACH OF CONTRACT, SECTION 5 OF THE NOTE (SUBJECT MATTER)
COVERING REAL PROPERTY THAT THE ALLEGED HOLDER COULD NOT
VALIDATE BEING VOID OF THE ORIGINAL NOTE AND WHERE THE
ASSIGNMENT WAS MANUFACTUIRED BASED ON EVIDENCE SUBMITTED.

Prepare under Rule 33.2 pursuant to 14.1 (c).

6

7

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

2-3

PARTIES TO THE PRECEEDING AND
COLLATERAL ATTACKS MATTERS ...

4

LIST OF ALL PROCEEDINGS

5-6

TABLE OF CONTENTS

7

TABLE OF AUTHORITIES

8

(on Pages 13-17)

Sighted Statements of Authorities
OPINION BELOW

8

JURISDICTION

8-9

CONSTITUTIONAL AND STATUTORY PRO VISIONS.... 9-11
PREFACE

11-12

STATEMENT OF THE CASE

17-22

DECLARATION OF COMPLIANCE

22

DECLARATION OF SERVICE

23

7

8

Page
TABLE OF AUTHORITIES
U.S. Bank Nat’l Ass’n v. Ibanez, 458 Mass. 637, 641 (2011)

18

Culhane u. Aurora Loan Servs. of Nebraska, 826 F. Supp. 2d .

18

BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)

18

Woods v. Wells Fargo Bank, N.A., 733 F.3d 349, 356(lst Cir. 2013)

19

Brooks u. JPMORGAN CHASE BANK, NA. l:12-cv-11634-FDS,
(void memorandum, order and judgment) being attacked herein

20

Lewis u. Bank of NY Mellon Trust Co. l:16-cv-11122-FDS

21-22

Scheuer v. Rhodes, 416 U.S. 232, 236, 94 S.Ct. 1683, 1686,
40 L.Ed.2d 90 (1974)...................................................................

22

Earle v. McVeigh, 91 US 503, 23 L Ed 398.

22

Also see by reference Restoring a Realistic Prospect of Trial, 46 Harv. C.R.-C.L. L.
Rev. 399 (2011) incorporated herein.

OPINION BELOW
The unpublished memorandum opinion of the United States Court of Appeals for the
Fourth Circuit is not included herein and, avoided sighting finding of facts and the
conclusions of the law as requested.

BASIS FOR JURISDICTION
This Court has jurisdiction of this petition to review the judgment of United States
Court of Appeals for the Fourth Circuit pursuant to 28 USC § 1254(1). The Fourth
8

9

Circuit's memorandum opinion was filed on 19 November 2020, (unpub.) and
Petitioners' Petition for Rehearing and Rehearing En Banc was denied and entry of
final judgment was on 19 November 2020.

STATUTORY PROVISIONS INVOLVED
Massachusetts General Law (MGL):
MGL c. 93A sec 2, MGL c. 240 sec. 1-5, MGL c. 185 sec 1 (k) and MGL c. 244 sec. 14
and 28 U.S. Code § 453 & 455 are as follows:
MGL c. 93A, sec. 2: Unfair and Deceptive Practices:
Section 2. (a) Unfair methods of competition and unfair or deceptive acts or practices
in the conduct of any trade or commerce are hereby declared unlawful.

MGL c. 240 sec. 1-5 Section Petition to compel adverse claimant to Try Title.
If the record title of land is clouded by an adverse claim, “The Allonge to Note” or by
the possibility thereof, a person in possession of such land claiming an estate of
freehold therein or an unexpired term of not less than ten years, and a person who
by force of the covenants in a deed or otherwise may be liable in damages, if such
claim should be sustained, may file a petition in the land court stating his interest,
describing the land, the claims and the possible adverse claimants so far as known to
him, and praying that such claimants may be summoned to show cause why they
should not bring an action to try such claim. If no better description can be given,
they may be described generally, as the heirs of A B or the like. Two or more persons
having separate and distinct parcels of land in the same county and holding under
the same source of title, or persons having separate and distinct interests in the same
parcel or parcels, may join in a petition against the same supposed claimants. If the
supposed claimants are residents of the commonwealth, the petition may be inserted
like a declaration in a writ, and served by a copy, like a writ of original summons.
Whoever is in the enjoyment of an easement shall be held to be in possession of land
within the meaning of this section. Mass. Gen. Laws ch. 240, § 1
MGL c. 185 sec 1 (k)
Section 1. The land court department established under section one of chapter two
hundred and eleven B shall be a court of record, and wherever the words "land court",
or wherever in this chapter the word "court" is used in that context, they shall refer
9

10

to the land court department of the trial court, and the words "judge of the land court"
or the word "judge", in context, shall mean an associate justice of the trial court
appointed to the land court department. The land court department shall have
exclusive original jurisdiction of the following matters:
(k) All cases and matters cognizable under the general principles of equity
jurisprudence where any right, title or interest in land is involved, including actions
for specific performance of contracts.
MGL c. 244 sec. 14.
Section 14. The mortgagee or person having estate in the land mortgaged, or a person
authorized by the power of sale, provided, however,
For purposes of this section
and section 21 of chapter 183, in the event a mortgagee holds a mortgage pursuant
to an assignment, no notice under this section shall be valid unless (i) at the time
such notice is mailed, an assignment, or a chain of assignments, evidencing the
assignment of the mortgage to the foreclosing mortgagee has been duly recorded in
the registry of deeds for the county or district where the land lies and (ii) the recording
information for all recorded assignments is referenced in the notice of sale required
in this section. The notice shall not be defective if any holder within the chain
of assignments either changed its name or merged into another entity
during the time it was the mortgage holder; provided, that recited within
the body of the notice is the fact of any merger, consolidation, amendment,
conversion or acquisition of assets causing the change in name or identity, the recital
of which shall be conclusive in favor of any bona fide purchaser, mortgagee, lienholder
or encumbrancer of value relying in good faith on such recital. Inasmuch, clearly this
was not followed or done in the body of the assignment nor in their notice of
mortgagee’s sale of real estate”

CONSTITUTIONAL PROVISIONS INVOLVED
The Fifth, Seventh and Fourteenth Amendments states in relevant part: “the right
to a trial by jury when the amount exceeds $20 Dollars in the Federal Courts”, "No
state shall. . . deprive any person of life, liberty, or property, without due process of
law." U.S. Const, amend, XIV, § 1. Article III, Section 2, Clause 1 of the Constitution
of the United States provides as follows: "The judicial Power shall extend to all Cases,
in Law and Equity, arising under this Constitution, the Laws of the United States,
and Treaties made, or which shall be made, under their Authority; - to all Cases
affecting 2 Ambassadors, other public Ministers and Consuls; - to all Cases of
admiralty and maritime Jurisdiction. Along with “the equal protection clause” under
the law. See 28 U.S. Code § 453 & 455.

10

11

PREFACE
This Case provides a timely cause for the U.S. Supreme Court to provide relief as
published under Rule 10 which warrants a call for an exercise of this Court's
supervisory power and judicial oversite.
Accordingly, this 60-year-old God fearing man; who cannot rightly claim citizenship
to THE UNITED STATES, where Petitioner have never been treated equally or able
to exercise these basic benefits under any constitution during his lifespan. This
matter before the Court is but one that seeks to reach the high court of the Land
whereas all prior UNITED STATES Courts directly disregarded both its rules of court
and the governing laws in favor of Respondents who failed to demonstrate themselves
as holder of the note, holder in due course and who failed to produce proper
documentation of the contract, i.e. “the original note” through proper (multiple)
requests for validation under the FDCPA, through discovery’s production along with
2 separate subpoenas issued in bankruptcy on Form B-10 in complete disregard to
the rules and governing laws as written. The U.S. Federal Courts look down upon pro
se litigants, Leitta R. Brooks and Bishop Ruben DeWayne, Petitioner in this action
on appeal while giving irregular rulings and docketing favoring a non-party
Defendant who removed the matter from a state land court who held exclusive
jurisdiction to try title from the onset, knowing full well that federal courts are courts
of limited jurisdiction. In addition, this non-party defendant also filed notice of
appearance, filed for an extension of time to answer, an order for protection and
motioned to dismiss the complaint. This non-party defendant JPMORGAN CHASE

11

12

BANK, NA., (“CHASE”) was not named a party, was not enjoined, did not motion
before the court for leave to enter as a third-party intervener. All while the named
party, J.P. MORGAN MORTGAGE ACQUISITION CORP. (“ACQUISITION”) failed
to answer and became grossly defaulted.
The U.S. Federal Court refused to strike CHASE even once acknowledge it was and
remained a non-party defendant, while ignoring and then denying the default of
ACQUISITION on the very same day that ACQUISITION filed its notice of
appearance.
The first matter commenced regarding the subject property was Leitta R. Brooks v.
JPMORGAN CHASE BANK, NA., Civil Action No. l-12-cv-11634-FDS for breach of
contract; being overcharged on both the interest rate and the total finance charge
above what the law allows. When this matter was dismissed, the U.S. Federal Court
did not merely bend the truth, he outright lied seeing neither CHASE or
ACQUISITION was on title as stated in that memorandum and order of dismissal
that was precured by frauds, ... being collaterally attacked here which set case
precedence that remains a void and may be attacked directly or collaterally and can
never be time barred. The party ACQUISITION made the title record 14 months after
that dismissal.
Once Petitioner became the record owner and began research of the same, it was
discovered that the assignment of mortgage is nothing short of being questionable for
many reasons. The assignment issued after the non-MERSCORP members, Office of
the Comptroller of the Currency (OCC) and the Federal Deposit Insurance

12

13

Corporation (FDIC) closed the bank and both the successor bank and the bank
purchased by merger were added to the list of failed U.S. banks back in July of 2008.
While this assignment of mortgage by MERS, INC., was executed Sept of 2014, when
MERS’ contract under the note has clearly ended.
Also, the assignment of mortgage was executed in the State of Louisiana where
MERS holds no record of authority to do business in LA. Further, the subject
assignment of mortgage bears the wrong loan number, bears a conflict of interest
where the signor, LeShonda Anderson acting as Assistant Secretary also acted as
Agent for JPMORGAN CHASE BANK, NA in Monroe LA. Please note LeShonda
Anderson’s name appears on several list of robot signors. Finally, these respondents
open the door to try title when submitting an “Allonge to Note” bearing the same date
of the loan, bearing a different loan number, that names 7 entities showing a chain
of purchases, mergers and acquisitions, but does not name the Respondent
ACQUISITION even though there was a single assignment on record to date.
The Petitioner’s status must be deemed “civilly dead”; murdered by the continued
outlawry and kleptocracy of the judicial pen within these United States. Here,
seeking to exercise a right to relief and remedy according to the published standard
one must consider these restraints of incarceration and imprisonment of liberties, as
imprisonment to means confinement in a place, commonly known as a prison or a jail
as punishment for a crime, whereas this ongoing confining of Petitioner’s liberty and
freedoms have been done so without any formal charges ever being filed or notice

13

14

given of a crime committed. As such this High Court is employed to correct and amend
the bad behavior of the lower courts surrounding this imprisonment of liberties.
The Founding Fathers; “framers” of the U.S. Constitution wanted to prohibit this
kind of abuse of power in these United States. They included a specific clause in the
Constitution to safeguard rights known as habeas corpus which is duly incorporated
herein by reference in combination with this writ of certiorari, by combining these 2
great writs are uncommon used in combo but required given the extraordinary
circumstances surrounding the compelling evidence which has made the official
record as a pattern, showing the imprisonment of Liberty that requires and warrants
this Court supervisory review and judicial oversite.
Otherwise this reported kleptocracy exercised in our U.S. Courts will continue to ruin
its citizens and their hope under the flag we all grew up to love as such erodes the
public confidence.

14

15

TABLE OF AUTHORITIES
U.S. Bank Nat’l Ass’n v. Ibanez, 458 Mass. 637, 641 (2011)
On March 26, 2009, judgment was entered against the plaintiffs. The judge ruled that
the foreclosure sales were invalid because, in violation of G.L. c. 244.

14. the notices

of the foreclosure sales named U.S. Bank (in the Ibanez foreclosure) and Wells Fargo
(in the LaRace foreclosure) as the mortgage holders where they had not yet been
assigned the mortgages. The judge found, based on each plaintiffs assertions in its
complaint, that the plaintiffs acquired the mortgages by assignment only after the
foreclosure sales and thus had no interest in the mortgages being foreclosed at the
time of the publication of the notices of sale or at the time of the foreclosure sales.
Culhane v. Aurora Loan Servs. of Nebraska, 826 F. Supp. 2d .
Holding "that a mortgagor has standing to challenge the assignment of a mortgage"
despite the fact that the plaintiff was not a party to, or a third-party beneficiary of
the assignments.
BellAtl. Corp. v. Twombly, 550 U.S. 544, 570(2007)
To survive a motion to dismiss, a complaint must contain “enough facts to state a
claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007). Although a complaint need not contain “detailed factual allegations,” it
must contain facts with enough specificity “to raise a right to relief above the
speculative level.”

Woods v. Wells Fargo Bank, N.A., 733 F.3d 349, 356(lst Cir. 2013)
United States Court of Appeals, First Circuit. October 9, 2013.
TORRUELLA, Circuit Judge.
Because Massachusetts law allows for non-judicial foreclosures by mortgagees with
the power of sale, Culhane reasoned that barring standing in all cases would unduly
15

16

TABLE OF AUTHORITIES - Continues
insulate assignments; mortgagors could not challenge the validity of standing. Thus,
claims that merely assert procedural infirmities in the assignment of a mortgage,
such as a failure to abide by the terms of a governing trust agreement, are barred for
lack of standing. Id. In contrast, standing exists for challenges that contend that the
assigning party never possessed legal title and, as a result, no valid transferable
interest ever exchanged hands. See U.S. Bank Nat'l Ass'n v. Ibanez, 458 Mass. 637.
651, 941 N.E.2d 40, 53 (2011) ("[T]here must be proof that the assignment was made
by a party that itself held the mortgage."). In this latter case, the challenge is to the
"foreclosing entity's status qua mortgagee." Culhane, 708 F.3d at 291; see also
Ibanez, 941 N.E.2d at 50 ("Any effort to foreclose by a party lacking jurisdiction and
authority to carry out a foreclosure ... is void.") (internal quotation marks omitted).
Brooks v. JPMORGAN CHASE BANK, NA. 1:12-cv-11634-FDS, (void judgment)
MEMORANDUM AND ORDER ON MOTION TO DISMISS
SAYLOR, J.
This action arises from a dispute over the terms of a mortgage loan. Plaintiff Leitta
Brooks contends that defendant breached the mortgage contract by disclosing a false
finance charge and annual percentage rate. Plaintiff also alleges violations of the
federal Truth in Lending Act (“TILA”) and Real Estate Settlement Procedures Act
(“RESPA”). Defendant has moved to dismiss the complaint for failure to state a claim
upon which relief can be granted. For the reasons set forth below, defendant’s motion
will be granted.

16

17

TABLE OF AUTHORITIES - Continues
I. Background, A. Factual Background:
The facts of this case are not clearly set forth in the complaint and are described here
as the Court understands them from the pleadings.
On May 11, 2007, Leitta Brooks obtained a loan in the amount of $500,000 from the
First National Bank of Arizona in order to finance the purchase of a property at 53
Charlotte Street, Dorchester, Massachusetts. To secure the loan, Ms. Brooks granted
the bank a note in the same amount. Both the note and the mortgage were later
assigned to JPMorgan Mortgage Acquisition Corporation. Defendant JPMorgan
Chase Bank, N.A. (“Chase”), is the servicer of the loan.
Whereas, the same U.S. District Judge, F. Dennis Saylor a/k/a “Saylor J.” issued his
Memorandum and Order in Lewis v. Bank of NY Mellon Trust Co. l:16*cv-ll 122-FDS,
on Defendants’ motion to dismiss dated August 31, 2016 states,
“Before addressing the issues raised by defendants’ motion, some background
on foreclosure law in MA and the MERS system is warranted. Under Massachusetts
law, if a mortgage grants a statutory “power of sale” and the mortgagor defaults, as
is the case here, an authorized party “may sell the property at a public auction and

Note: This dismissal by his account of facts stated the assignment had taken place
when that was simply untrue. This was not merely bending the truth, it was an
outright lie. Dismissed 7/17/2013, when the assignment execution was 9/08/2014 and
made the official record on 9/22/2014, being 14 months after this dismissal.
Lewis v. Bank of NY Mellon Trust Co. l:16-cv-11122-FDS.

17

18

convey the property to the purchaser in fee simple.” U.S. Bank Nat’lAss’n
v. Ibanez, 458 Mass. 637, 641 (2011) (cited Mass. Gen. Laws ch. 183, § 21).
“Recognizing the substantial power that the statutory scheme affords to a mortgage
holder to foreclose with-out judicial oversight, [courts must] adhere to the familiar
rule that one who sells under a power of sale must follow strictly [the statute’s]
terms.” Id. At 646
“MERS functions to streamline the process of securitization and trading of mortgages.
A MERS member, upon becoming a lender, names MERS as its nominee and the
mortgagee of record and inputs the mortgage into the MERS database. The mortgage
note can then be assigned freely among MERS members, with MERS—as mortgagee
of record—authorizing and memorializing these trades while circumventing much of
the time and paperwork associated with traditional assignments. “[0]nly when a
note is transferred to a non-MERS member institution does MERS transfer
away its interest as mortgagee, thus ending its involvement in the
assignment process.” F. Dennis Saylor, U.S. District Court Judge.
Scheuer v. Rhodes. 416 U.S. 232. 236. 94 S.Ct. 1683. 1686. To L.Ed.2d 90 (1974).!
"[A] complaint should not be dismissed for failure to state a claim unless it appears1
beyond doubt that the plaintiff can prove no set of facts in support of his claim which
would entitle him to relief." Conley v. Gibson, 355 U.S. 41. 45-46. 78~S.Ct. 99. ioTl
02. 2 L.Ed. 2d'800957)1

18

19

Earle v McVeigh, 91 US 503, 23 L Ed 398.
No man shall be condemned in his person or property without notice, and an
opportunity to be heard in his defense, is a maxim of universal application; and it
affords the rule of decision in this case.
Decree affirmed.
See 28 U.S. Code § 453 & 455.
Also see Restoring a Realistic Prospect of Trial, 46 Harv. C.R.-C.L. L. Rev. 399 (2011)

STATEMENT OF THE CASE
This matter is clearly extraordinary demonstrating an ongoing abuse of power from
the judiciary which involves imprisonment of rights and incarceration of freedoms.
The first 4 questions presented before this Honorable Court are uncomplicated
respecting; (1) the systematic denial of the right to a trial by jury using summary
dismissal, against guaranteed provisions set forth by the Bill of Rights under
Amendments to the U.S. Constitution, (2) which includes the denial of due process
rights under the law, (3) and the denial of equal protection under the law and, (4)
violation of the right to be heard by withholding opportunity to explain my matter in
a meaningful way and that without a hearing at all. The remaining questions are
more challenging, but very necessary regarding (5) the questionable legal documents
the lower court did not even mention, speak on or about, consider or question seeing
Petitioner raised issues about these documents being manufactured which remains

19

20

paramount; essential to establish standing and the lack thereof, seeing that the
Respondents open this doors by utilizing and placing them in support of their false
claim for standing which was duly challenged in the pleadings in the lower court,
brought to Try Title being a right not waived.
For starters, both the “allonge to note” and the “assignment of mortgage” are in
serious question here as Petitioner holds iron clad proof that these 2 documents were
in fact manufactured to support their false claim, which would have been accepted if
they were able to prove-up this unfounded and baseless claim. This quest of exposing
the truth must come forward as follows:

Challenging the Allonge to Note:

a. The Allonge to Note is dated the same day of the loan in question but bears a
completely different loan number than what was affixed on the original note.
Also, such was not executed by Ms. Brooks nor a part of the closing documents.
b. The Allonge to Note names 7 different entities showing the flow of rights and
interest regarding chain of purchases, mergers and the many hands and their
relation to the flow of acquisition of note and mortgage.
c. From the time the subject loan issued in May of 2007 to the defunct of both

Note: It is a fact that Respondent are void of the original note. Respondents claimed
they held it, but a couple days thereafter were unable to produce when subpoenaed
in Re: Leitta R. Brooks Chapter 7 Bankruptcy Brooks issued 2 separate subpoenas
for production of documents under discovery and Respondent could not produce or
prove they had proper standing that resulted in their withdrawal of their motion
lifting the automatic stay that resulted in the discharge in the bankruptcy matter
with the stay placed back in force as a permeant injunction by operation of the law.
20

21

banks in July 2008 which tolls about 14-months in duration. This Allonge to
Note does not name or mentioned J.P. MORGAN MORTGAGE ACQUISITION
CORP at all, even though it remains the only entity who received the single
assignment recorded in the public records of Suffolk County Registered Deeds
Office.
This information is a well-established fact and prima facie evidence given rise to both
challenge and compel Respondents to “Try Title” which is what this matter was filed
under in the court of original jurisdiction over land and title disputes in
Commonwealth of Massachusetts.
Also, challenging the MERS’ assignment:
a. The MERS” assignment did not recite the chain of events to match the multiple
named entities found on the allonge to note.
b. The MERS” assignment also bears a completely different loan number than
what was affixed on the original note, nor was the proper loan number
referenced.
c. The MERS” assignment also bears an immediate conflict of interest where the
alleged assistant secretary, LeShonda Anderson also acted as agent for
JPMORGAN CHASE BANK, NA.
d. The MERS” assignment bears a notary seal showing LeShonda Anderson
personally appeared before a notary public in the State of Louisiana where
MERS was not authorized to conduct its business.

21

22

e. The MERS” assignment does not recite the purchase of First National Bank of
Arizona by merger with 1st National Bank of Nevada.
f. The MERS” assignment doe not mention the defunct; that stemmed from
government bank closure of both, 1st National Bank of Nevada and First
National Bank of Arizona by the Office of Comptroller of the Currency (OCC).
g. The fact that this MERS assignment was executed in LA demonstrates where
proper service had to be served rendered such service and process upon its
registered agent, CT Corporation System who is the single registered agent for
MERS, MERSCORP and MERSCORP Holdings, Inc. nationwide.
h. LeShonda Anderson’s name has appeared on several list of robot signors.
i. The Respondents are void of an assignment issued from the FDIC which is a
non-MERSCORP Member who was receiver for 1st National Bank of Nevada,
stripping MERS of authority and ending the contract as sole nominee and
mortgagee.

THE HIDDEN PROBLEMS ARE EXPOSED HERE
The problem here is there were two banks in the State of Arizona utilizing the same
exact name of First National Bank of Arizona. The later had to change its name. For
this reason, the later First National Bank of Arizona changed its name to First
Intrastate Bank of Arizona, NA. Thereafter, First Intrastate Bank of Arizona, NA
was purchased by merger with WELLS FARGO BANK, NA and became Wells Fargo
Bank of Arizona, NA in September of 1996. Trust me, but please also verify the same.

22

23

Inasmuch as First Intrastate Bank of Arizona, NA, fka First National Bank of
Arizona became inactive since the WELLS’ purchase showing the impossibility of the
allonge to note being worthy of any recognition other than being manufactured for
the ongoing purposes of frauds because the subject loan did not issue until May 11,
2007, years later and this exposure further verifies and supports the core reason for
compelling Respondents to try title which was not waived.
Under both the Canon and U.S. Constitution, the lower court was required to neutral
and impartial, but to deny Petitioner the freedom to enjoy a fair an unbiased
opportunity to compel Respondents to try title because they open the door by placing
these false, misleading and misrepresented information on official records willingly
knowing full well they lacked standing.
After July of 2008 only the Receiver, FDIC could issue a transfer/assignment once the
Comptroller of the Currency (OCC) closed 1st National Bank of Nevada which again,
ended MERS’ involvement in the assignment process.
Finally, any reasonable minded person looking at these facts, considering the
withheld published guaranteed rights under the U.S. Constitution in violation
against this Petitioner should be require by court order to make the Petitioner whole.
While also considering the unlawful incarceration of freedom and liberty to enjoy a
fair and impartial hearing by jury trial when the process was due.
What happened to the statements of the plaintiff shall be taken as true? Published
by the U.S. Supreme Court.

23

24

Just a reminder, "A judge faced with the potential grounds for disqualification ought
to first consider how his participation in a given case looks to the average person on
the street." (id. p. 1111). - Potashnick v. Port Ci ty Construction Co., 609 F. 2d 1101,
(5th Cir. 1980) 28 U.S. Code § 453 & 455.
This combination applying the nature of a Writ of Habeas Corpus within this Writ of
Certiorari is certainly uncommon to say the least. However, due to the compelling
evidence showing this longstanding off-the-book detainer of incarceration and
imprisonment of published right denied to me for more than 20 years warrants swift
justice to end this color of law oppression. Enough said. Amen.

Declaration of Compliance under Oath
I hereby declare that this Writ of Certiorari and all of the contents totals,6033 words
herein were drafted and entered by the Petitioner in this matter under the pains and
penalty of perjury of the United States so help me Almighty God. Amen.

Respectably s

itthd, fo

Bishop Ruben DeWayne
5105 N. Main Street Bid. A.
Columbia, South Carolina 29203
(803) 200-5105
Sworn and/or Affirmed before me a notary public for the State of South Carolina this
/ ^dav of July, 2021, Affiant states that the contents herein are true and correct under
the pai^s and pen;
of perjury of the United States so help me God.

Notary Public

-7W* 9^*1

SEAL:

Notary Expires

24

25

DECLARATION OF SERVICE:
I, Bishop Ruben DeWayne do hereby declare that I have served a true and correct
copy of:
PETITION FOR WRIT OF CERTIORARI
BY APPEAL
Under Consideration for Review on Writ of Certiorari
Pursuant to the Supreme Court of the United States Rule 10.
upon the Defendants/Appellees by First Class Mail of the U.S. Postal Service (pre-

■j—dfei
paid) this / 1 day of July, 2021 at the address listed below.
J.P. MORGAN MORTGAGE ACQUISITION CORP. and
MORTGAGE ELECTRONIC REGISTRATION SYSTEMS INC.
NELSON MULLINS
P.O. Box 11070
Columbia, SC 29211-1070

Respectfully submitted, for'Lam

The Bishop Ruben DeWayne
c/o 5105 N. Main Street Bid. A.
Columbia, South Carolina 29203
(803) 200-5105

Whereas, this matter brought before this Highest Court of the Lands on appeal
showing the lower courts departed so far from the accepted and usual course of
judicial proceedings as published, which warrants a call for an exercise of this Court's
supervisory power and judicial oversight.

25

